BECKER GALLAGHER
Briefs

and

I

Records

DoNNA
JULIE

CERTIFICATE OF SERVICE
I, DonnaJ. Wolf, hereby certify that 1 unbound and
40 copies of the foregoing Brief for the Northwest
Legal Foundation as Amicus Curiae in Support of
Petitioner in 19-197, Lavern Behm v. Montana-Dakota
Utilities Co., were sent via Three Day Service to the
U.S. Supreme Court, and 3 copies were sent Three Day
Service and e-mail to the following parties listed
below, this 1st day of October, 2019:
Dale Michael Schowengerdt
Crowley Fleck
900 N Last Chance Gulch
#200
Helena, MT 59601
(406) 457-2040
dschowengerdt@crowleyfleck.com
Counsel for Respondent
Lynn M. Boughey
P.O. Box 1202
Mandan, ND 58554-1202
(701) 751-1485
lynnboughey@midconetwork.com
Counsel for Petitioner
Richard B. Sanders
Counsel of Record
Goodstein Law Group, PLLC
501 South "G" Street
Tacoma, WA 98405
(253) 779-4000
rsanders@goodsteinlaw.com
Counsel for Amicus Curiae

I

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

A.

J. WOLF, J.D.
KERSHNER, J.D.

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on October 1, 2019.

Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary
[seal]

JULIE ANNE KERSHNER
Notary Public, State of Ohio
My Commission Expires
February 21, 2023

